June 19, 2003

DEWITT O. HARRIS
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT: Audit Report – Shared Service Center Injury Compensation Program
         (Report Number HK-AR-03-002)

This report presents the results of our self-initiated audit of the Shared Service Center
Injury Compensation Program (shared service center program) (Project Number
03YN002HK000). The objectives of our audit were to assess the effectiveness and
efficiency of the program and to determine whether the program should be expanded to
other Postal Service areas.

The audit revealed that we could not determine how effective or efficient the program
was because the Postal Service could not provide current program implementation
costs, operational costs, and estimated workers’ compensation savings data for the
consolidated Eastern Area districts. Additionally, we found that the Postal Service did
not adequately manage its resources to fully realize the benefits of the program. We
also found that the program received unfavorable customer feedback and did not
improve the timely submission of workers’ compensation forms to the Department of
Labor. As a result, we recommended the Postal Service reevaluate the shared service
center program to determine whether it meets anticipated objectives and warrants
expansion to other Postal Service areas. In addition, the Postal Service should ensure
that shared service center program resources are properly managed and staff are
trained to fully realize the benefits of consolidating injury compensation and accident
reporting.

Management agreed with our recommendations and has undertaken several initiatives
to improve program effectiveness, operational efficiency, and customer satisfaction.
Management’s comments and our evaluation of these comments are included in this
report.

The Office of Inspector General (OIG) considers recommendations 1 and 2 significant
and, therefore, requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any further questions or need additional information, please contact
Erica Blackman, director, Healthcare Audit, at (703) 248-2100, or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Core Business

Attachment

cc: Suzanne F. Medvidovich
    Ronald E. Henderson
    Gary R. Condley
    Linda Young
    Susan M. Duchek
Shared Service Center Injury Compensation                               HK-AR-03-002
 Program



                                  TABLE OF CONTENTS
Executive Summary                                                            i

Part I

Introduction                                                                1

   Background                                                               1
   Objectives, Scope, and Methodology                                       2
   Prior Audit Coverage                                                     3

Part II

Audit Results                                                               4

   Program Costs and Estimated Savings Not Adequately Supported or          4
    Available
   Recommendation                                                           4
   Management’s Comments                                                    5
   Evaluation of Management’s Comments                                      5

   Better Management of Resources Needed                                    6
   Recommendation                                                           9
   Management’s Comments                                                    9
   Evaluation of Management’s Comments                                     10

   Unfavorable Customer Feedback                                           11
   Recommendation                                                          13
   Management’s Comments                                                   14
   Evaluation of Management’s Comments                                     14

Appendix A. Description of the Shared Service Center’s Tier 1 – Call       15
            Center Accident Reporting and Tier 2 – Case Management
            Components

Appendix B. Eastern Area Staff Costs Prior to and After Consolidation      16

Appendix C. Management’s Comments                                          17




                                        Restricted Information
Shared Service Center Injury Compensation                                                          HK-AR-03-002
 Program


                                      EXECUTIVE SUMMARY
Introduction                     This report presents the results of our self-initiated audit of
                                 the Shared Service Center Injury Compensation Program
                                 (shared service center program). Our objectives were to
                                 assess the effectiveness and efficiency of the program and
                                 to determine whether the program should be expanded to
                                 other Postal Service areas.

Results in Brief                 In July 2001, the Postal Service began the shared service
                                 center pilot with only three Eastern Area districts –
                                 Harrisburg, Erie, and Pittsburgh. The program later
                                 consolidated the remaining 12 Eastern Area districts1 into
                                 one performance cluster located in Pittsburgh,
                                 Pennsylvania.

                                 We could not determine how effective or efficient the shared
                                 service center program was because Postal Service could
                                 not provide documentation to support program
                                 implementation costs, operational costs, and estimated
                                 workers’ compensation savings. Additionally, we found that
                                 the Postal Service did not adequately manage its resources
                                 to fully realize the planned benefits of the shared service
                                 center program. Furthermore, the program received
                                 unfavorable customer feedback, and did not meet the Postal
                                 Service’s internal goal for timely submission of claim forms
                                 to the Office of Workers’ Compensation Programs.

                                 Without accurate program costs and estimated savings
                                 documentation, better management of program resources,
                                 favorable customer feedback, and timely submission of
                                 claims to the Office of Workers’ Compensation Programs,
                                 the Postal Service cannot ensure that the program will meet
                                 its intended objectives. Specifically, the Postal Service
                                 cannot adequately project staffing needs, costs and return
                                 on investment, and measure performance.

Summary of                       We recommended the Postal Service reevaluate the shared
Recommendations                  service center program to determine whether it meets



1
 The districts included: Cleveland, Ohio; Philadelphia, Pennsylvania; Akron, Ohio; Lancaster, Pennsylvania;
Columbus, Ohio; Cincinnati, Ohio; Greensboro, North Carolina; South Jersey; Kentuckiana; Appalachian; Mid-
Carolinas; and Greater South Carolina.



                                                        i
                                             Restricted Information
Shared Service Center Injury Compensation                                       HK-AR-03-002
 Program



                             anticipated objectives and warrants expansion to other
                             Postal Service areas. In addition, the Postal Service should
                             ensure that shared service center program resources are
                             properly managed and staff are trained to fully realize the
                             benefits of consolidating injury compensation and accident
                             reporting.

Summary of                   Management stated they believed that the audit was
Management’s                 premature since the shared service center program was in
Comments                     its start-up phase and as with any new concept, issues
                             relating to staffing, training, and technology are common.
                             However, management agreed with our findings and
                             recommendations but did not agree with our conclusion
                             pertaining to program cost and estimated savings.
                             Specifically, they stated adequate support was provided to
                             validate the projected cost savings of the injury
                             compensation program. As indicated in the report, the
                             Postal Service did provide documentation to support the
                             Eastern Area’s staffing costs; however, they could not
                             provide documentation for program implementation costs,
                             operational costs, and estimated worker’s compensation
                             savings for 12 of the 15 Eastern Area districts. Although
                             management did not agree with the conclusion, they agreed
                             with the recommendation. Management plans to conduct a
                             program reevaluation around October 2003 and if future
                             shared service center program initiatives are considered
                             and their cost exceeds $5 million to fund, a Decision
                             Analysis Report will be prepared and submitted to support
                             the decision making process.

                             Since the time of our audit, the Postal Service has
                             undertaken several initiatives to improve operational
                             effectiveness and efficiency and customer satisfaction.
                             Management’s comments, in their entirety, are included in
                             Appendix C of this report.

Overall Evaluation of        Although management believed our audit was premature, it
Management’s                 is not uncommon for us to review programs that are in their
Comments                     early stages. Historically, our early involvement has helped
                             management to identify potential areas of concern before
                             full implementation and as a result, we believe our audit was
                             timely. However, management’s comments were




                                                   ii
                                        Restricted Information
Shared Service Center Injury Compensation                                      HK-AR-03-002
 Program


                             responsive to our recommendations. The actions taken and
                             planned should correct the issues identified in the report
                             and improve service and efficiency within the shared service
                             center.




                                                  iii
                                        Restricted Information
Shared Service Center Injury Compensation                                                           HK-AR-03-002
 Program


                                       INTRODUCTION
Background                   The Federal Employees’ Compensation Act, 5 U.S.C.
                             Section 8101 et seq., administered by the Department of
                             Labor’s Office of Workers’ Compensation Programs, covers
                             Postal Service employees. The Office of Workers’
                             Compensation Programs makes all decisions regarding
                             injured workers’ eligibility for benefits. All Postal Service
                             workers’ compensation claims and Office of Workers’
                             Compensation administrative fees are paid out of Postal
                             Service funds. Thus, the Postal Service’s financial condition
                             is directly affected every time an injured employee is
                             compensated.

                             Postal Service workers’ compensation costs have increased
                             from $538 million in fiscal year (FY) 1997 to $805 million in
                             FY 2002, as shown in the following chart.


                                                COMPENSATION COST PER YEAR
                                                       IN MILLIONS


                                $900
                                $800                                                            $805
                                                                                      $731
                                $700                                        $671
                                $600                             $585
                                             $538      $567
                                $500
                                $400
                                $300
                                $200
                                $100
                                  $0
                                         1997       1998      1999      2000       2001      2002


                             Source: Department of Labor-Office of Workers’ Compensation Programs Chargeback
                             Costs. These costs include administrative fees.


                             To better control costs and improve operational efficiency,
                             the Postal Service introduced the shared service concept
                             agency-wide. The shared service concept, which supports
                             the Postal Service’s Transformation Plan, involves sharing
                             technology, people, and any other resources within and
                             across administrative functions in order to reduce costs and
                             improve the quality of administrative services. Consistent




                                                    1
                                         Restricted Information
Shared Service Center Injury Compensation                                                          HK-AR-03-002
 Program



                                 with this concept, the Postal Service initiated the Shared
                                 Service Center Injury Compensation Program (shared
                                 service center program) as a pilot to address injury
                                 compensation issues in the Eastern Area.

                                 In July 2001, the Postal Service began the pilot of the
                                 shared service center program with only three Eastern Area
                                 districts – Harrisburg, Erie, and Pittsburgh. The program
                                 later consolidated the remaining 12 Eastern Area districts2
                                 into one performance cluster located in Pittsburgh,
                                 Pennsylvania. The program consisted of Tier 1 – Call
                                 Center Accident Reporting and Tier 2 – Service Center
                                 Case Management components (see Appendix A for a
                                 description). The objectives of the shared service center
                                 program were to:

                                  •    Reduce costs.

                                  •    Promote efficiency.

                                  •    Standardize processes and eliminate redundant
                                       activities.

                                  •    Improve customer service.

                                 The pilot ended December 2002, and is fully operational in
                                 the Eastern Area.

Objectives, Scope,               The objectives of our audit were to assess the effectiveness
and Methodology                  and efficiency of the program and to determine whether the
                                 program should be expanded to other Postal Service areas.

                                 To accomplish our objectives, we reviewed related
                                 documents and regulations and interviewed officials at the
                                 shared service center in Pittsburgh; Cleveland, Akron, and
                                 Pittsburgh District Offices; headquarters; Eagan Accounting
                                 Service Center; and the Department of Labor – Office of
                                 Workers’ Compensation Programs. We evaluated internal
                                 controls, the impact of automation on process efficiency,
                                 performance measures, and costs and savings; and we

2
 The districts included: Cleveland, Ohio; Philadelphia, Pennsylvania; Akron, Ohio; Lancaster, Pennsylvania;
Columbus, Ohio; Cincinnati, Ohio; Greensboro, North Carolina; South Jersey; Kentuckiana; Appalachian; Mid-
Carolinas; and Greater South Carolina.



                                                        2
                                             Restricted Information
Shared Service Center Injury Compensation                                                              HK-AR-03-002
 Program


                                  obtained feedback on customer satisfaction. We attempted
                                  to validate the projected costs and savings associated with
                                  consolidating the injury compensation program at a
                                  centralized location. We compared the shared service’s
                                  consolidated program to the traditional district-based injury
                                  compensation approach. We also interviewed members of
                                  the Process Validation Team and obtained documents used
                                  to assess the program’s processes, procedures, and
                                  performance.

                                  In addition, we discussed plans for expansion with Postal
                                  Service officials, reviewed the Postal Service’s
                                  Transformation Plan, assessed workers’ compensation
                                  growth rates, and compared Eastern Area staff levels and
                                  salary costs before and after consolidation. To assess the
                                  impact of automation on the program, we reviewed the
                                  effectiveness of the First Notification of Incident/Injury
                                  System,3 electronic Injury Compensation Performance
                                  Analysis System,4 and the Symposium Call Center Server
                                  System (symposium)5 to reduce transactional work and
                                  manage employee performance.

                                  This audit was conducted from November 2002 through
                                  June 2003, in accordance with generally accepted
                                  government auditing standards and included such tests of
                                  internal controls as were considered necessary under the
                                  circumstances. We did not perform reliability or validity
                                  analyses on the computer-generated data used. We
                                  discussed our conclusions and observations with
                                  appropriate management officials and included their
                                  comments, where appropriate.

Prior Audit Coverage              We did not identify any prior audits or reviews related to the
                                  objectives of our audit.




3
  First Notification of Incident/Injury System is a legacy web-based application designed to assist the shared service
center call agents in gathering accident information from the front-line, field supervisor.
4
  The electronic Injury Compensation Performance Analysis System is a technology-based solution specifically
designed to aid in the management of the Postal Service injury compensation program. When fully implemented, the
system is expected to replace some of the legacy systems, create a centralized data repository, provide an improved
case management tool, and provide customer self-service functionality.
5
  Symposium is a telephone call system designed to accept, track, and monitor injury compensation service calls and
to generate reports that management can use to assess performance.



                                                          3
                                               Restricted Information
Shared Service Center Injury Compensation                                                    HK-AR-03-002
 Program


                                                AUDIT RESULTS
Program Costs and                    Although the Postal Service provided documentation to
Estimated Savings                    support the Eastern Area staff costs (see Appendix B), they
Not Adequately                       could not provide documentation for program
Supported or                         implementation costs, operational costs, and estimated
Available                            workers’ compensation savings for 12 of the 15 Eastern
                                     Area districts. As a result, the program’s overall
                                     performance and cost benefit cannot be adequately
                                     assessed.

                                     The Postal Service stated they did not need to prepare a
                                     Decision Analysis Report or a Justification of Expenditure for
                                     the injury compensation shared service initiative because it
                                     initially began as a pilot with only three districts,6 and did not
                                     meet the required $5 million threshold. However, during the
                                     course of the pilot, Postal Service management made a
                                     decision to expand the pilot by consolidating the remaining
                                     12 Eastern Area districts. In expanding the pilot, and without
                                     program documentation to support the consolidation effort,
                                     the Postal Service may have unknowingly met or exceeded
                                     the $5 million threshold. This may have occurred because
                                     documentation for program implementation costs and
                                     medical and compensation cost reductions was only
                                     available for 3 of the 15 districts.

                                     As a result, the Postal Service cannot adequately project
                                     staffing needs, estimate costs and return on investment,
                                     and measure performance. Moreover, without proper
                                     justification or supporting documentation, the Postal Service
                                     cannot ensure that the program will meet its proposed
                                     objectives or determine whether it should be expanded to
                                     other areas.

Recommendation                       We recommend the vice president, Employee Resource
                                     Management:

                                          1. Reevaluate the program to determine whether it
                                             should be expanded to other areas. If expansion is
                                             considered and the cost meets or exceeds
                                             $5 million, a Decision Analysis Report should be
                                             prepared and submitted to support the decision-
                                             making process.
6
    The three districts included Erie, Pittsburgh, and Harrisburg, Pennsylvania.



                                                             4
                                                  Restricted Information
Shared Service Center Injury Compensation                                       HK-AR-03-002
 Program




Management’s                 Management agreed with our recommendation stating they
Comments                     will conduct a reevaluation of the program around the
                             October 2003 timeframe. Management also agreed that if
                             another Postal Service area considers implementing injury
                             compensation shared service initiatives and funding for the
                             expansion exceeds $5 million, they would prepare and
                             submit a Decision Analysis Report to support the decision-
                             making process. Although management agreed with our
                             recommendation, they did not concur with our conclusion for
                             this finding. Management believed the information provided
                             was sufficient to support projected staffing needs, estimated
                             costs and return on investment, and performance
                             measurement.

Evaluation of                Management’s comments are responsive to our
Management’s                 recommendation; however, we disagree with management
Comments                     assertion regarding the finding. As indicated in the report,
                             the Postal Service did provide documentation to support the
                             Eastern Area’s staffing costs; however, they could not
                             provide documentation for program implementation costs,
                             operational costs, and estimated worker’s compensation
                             savings for 12 of the 15 Eastern Area districts.
                             Management’s actions taken and planned should correct
                             the issues identified in the report.




                                                   5
                                        Restricted Information
Shared Service Center Injury Compensation                                        HK-AR-03-002
 Program




Better Management            The Postal Service did not adequately manage its resources
of Resources Needed          to fully realize the benefits of the shared service center
                             program. Specifically, the shared service center program
                             experienced frequent personnel turnover since its inception,
                             the symposium system was underutilized due to a lack of
                             training, and the electronic Injury Compensation
                             Performance Analysis System was not fully deployed. As a
                             result, the Postal Service cannot ensure that the program is
                             meeting its intended objectives to reduce costs; promote
                             efficiency; standardize processes and eliminate redundant
                             activities; and improve customer service.

Personnel Turnover           Since the shared service center program pilot began in
                             July 2001, the program has experienced a constant turnover
                             of call center managers, call agent managers, case
                             manager supervisors, and case managers. This was due to
                             the shared service center relying on Postal Service
                             employees who were temporarily detailed until permanent
                             staff members were hired. Prior to the consolidation of the
                             15 Eastern Area district offices, each district had its own
                             injury compensation function on site to perform accident
                             reporting. As a result, due to the constant personnel
                             turnover, the processing of injury compensation cases and
                             accident reporting has been inaccurate and untimely.

Symposium Call               During our audit, we found that the symposium system was
Center Server System         underutilized because supervisors were not trained to make
                             the best use of its performance analysis capability. The
                             symposium system was designed to accept, track, and
                             monitor service calls and to generate reports that
                             management could use to assess call agent and case
                             manager performance. Although the Postal Service
                             provided training to supervisors via a contractor from June
                             through July 2002 on the use of the symposium system,
                             employees who received this initial training were in a detail
                             status and no longer work at the shared service center. At
                             the time of our audit, training had not been provided to
                             replacement personnel and the symposium system is
                             underutilized. Postal Service Handbook, EL-505,
                             Chapter 2, states that to effectively manage the injury
                             compensation program and control compensation costs,
                             units should promote efficiency through the training of
                             personnel.




                                                   6
                                        Restricted Information
Shared Service Center Injury Compensation                                                                                             HK-AR-03-002
 Program



                                  Furthermore, we also obtained data from the Postal
                                  Service’s Process Validation Team7 that listed the time and
                                  types of phone activities agents were engaged in throughout
                                  the day. We identified that the call agents reported
                                  considerable time in a “not ready”8 mode. Specifically, the
                                  analysis of symposium system data from June through
                                  December 2002 indicated that although Tours 2 and 39
                                  account for 85 percent of the call agents’ time, their phone
                                  lines were placed in a “not ready” status 65 to 70 percent of
                                  the time. The following chart shows the amount of time
                                  each of the three tours had their phones in a “not ready”
                                  status from June through December 2002.

                                                                             Call Agent Not Ready Status


                                                                                                                         68%
                                     Total (Weighted Average)                                                       67%
                                                                            18%
                                                                                                                                76%
                                                 DECEMBER                                                                      74%
                                                                     8%

                                                                                                                               74%
                                                NOVEMBER                                                 54%
                                                                           17%

                                                                                                                        67%
                                                  OCTOBER                                                                68%
                                                                           16%
                                       Month




                                                                                                                                75%
                                                SEPTEMBER                                                                     72%
                                                                                    31%

                                                                                          37%
                                                    AUGUST                                                              66%
                                                                                  27%

                                                                                                         54%
                                                       JULY                                                       61%
                                                                           17%

                                                                                                43%
                                                       JUNE                                                                          79%
                                                                                   29%

                                                                0%   10%   20%    30%     40%     50%      60%          70%     80%        90%   100%

                                                                                                Tour 1   Tour 2     Tour 3




                                                    Source: Call Agent Performance Report obtained January 24,
                                                    2003.




7
  This is an internal shared service center team established to perform periodic reviews of the program.
8
  A “not ready” mode indicates that the agent is logged onto symposium but has placed the phone in a state that will
not accept incoming calls. This is often done when a shared service center call agent is performing other vital
transactional duties.
9
  Most Postal Service facilities have core hours for operations. These core hours are divided into tours (Tour 1:
11:00 p.m. to 7:00 a.m., Tour 2: 7:00 a.m. to 3:00 p.m., and Tour 3: 3:00 p.m. to 11:00 p.m.)



                                                              7
                                                   Restricted Information
Shared Service Center Injury Compensation                                                               HK-AR-03-002
 Program



                                   We were told that a quick in-house modification10 to
                                   symposium could provide even more accurate identification
                                   of specific tasks being performed when in a “not ready”
                                   status. However, such a modification would require
                                   additional support from information system personnel. At
                                   the time of our audit, the Eastern Area information system
                                   specialist dedicated only 25 percent of his time to support
                                   the shared service center.

                                   Overall, supervisors were not using the system to monitor,
                                   manage, and evaluate performance. If symposium was
                                   used as intended, officials could obtain information on
                                   productivity levels and possibly reduce workers’
                                   compensation costs for the Postal Service.

electronic Injury                  The Postal Service’s electronic Injury Compensation
Compensation                       Performance Analysis System was scheduled to operate
Performance Analysis               concurrently with the shared service center’s pilot program
System                             by providing electronic performance analysis functions to
                                   support the shared service center. However, this phase of
                                   the system was not fully deployed because it experienced
                                   development delays and funding uncertainties. Although
                                   the Postal Service’s Information Technology Office was
                                   responsible for developing the system, delays in the
                                   system’s implementation impacted the shared service
                                   center’s program by not integrating the legacy systems into
                                   a relational database. This integration would provide the
                                   capability to display on-line screens, to query individual
                                   cases, and to generate reports.

                                   The table on the next page lists the performance analysis
                                   functions of the electronic Injury Compensation
                                   Performance Analysis System needed to support the shared
                                   service center.




10
  The modification would entail rebuilding each phone with an activity code key that would identify the type of call.
The process would take 15 minutes. A call agent could put in a code type based on the question/answers received
from the caller. This feature would allow the shared service center call center managers to determine the task of
each call agent and measure productivity. A total of 48 phones would need to be upgraded by Postal Service
personnel.




                                                          8
                                               Restricted Information
Shared Service Center Injury Compensation                                                  HK-AR-03-002
 Program



                                                Performance Analysis Functions

                               On-Line Screens            Ad-Hoc Queries   Printable Views

                               Employee information.      Accident.        Performance.

                               Accident detail.           Injury.          Adjudication.

                               Injury detail.             Customizable.    Financial.

                               Builds in imaging          Scalable.        Statistical.
                               functionality for future
                               phases.


                             As a result of the development delays to the electronic
                             Injury Compensation Performance Analysis System, the
                             shared service center must continue to rely on legacy
                             systems to provide performance analysis functions.
                             Consequently, the shared service center cannot take
                             advantage of the benefits offered by this phase of the new
                             system.

Recommendation               We recommend the vice president, Employee Resource
                             Management:

                                  2. Ensure that the shared service center program’s
                                     resources are properly managed and staff are
                                     trained to fully realize the benefits of consolidating
                                     injury compensation and accident reporting to meet
                                     the program’s intended objectives.

Management’s                 Management agreed with the recommendation stating they
Comments                     anticipate staffing to be at full complement by June 2003,
                             thus eliminating many of the problems resulting from the
                             constant turnover of personnel. Management also agreed
                             that symposium was underutilized due to lack of training at
                             the time of our audit. Management indicated that
                             permanent staff have recently been assigned and trained.
                             Lastly, the area’s information technology staff plans to
                             modify symposium by enabling call agents to input codes
                             that indicate the performance of their ancillary duties. This
                             will enhance management’s ability to track and evaluate call
                             agent productivity.




                                                     9
                                          Restricted Information
Shared Service Center Injury Compensation                                         HK-AR-03-002
 Program




Evaluation of                Management’s comments are responsive to our
Management’s                 recommendation and the actions taken and planned should
Comments                     correct the issues identified in the report. Since the time of
                             this audit, management rolled out on May 18, 2003, the
                             performance analysis phase of the electronic Injury
                             Compensation Performance Analysis System to injury
                             compensation and safety specialists.




                                                  10
                                        Restricted Information
Shared Service Center Injury Compensation                                                            HK-AR-03-002
 Program




Unfavorable                     We learned that district personnel were not satisfied with the
Customer Feedback               level of service provided by the shared service center
                                program. During our audit, we obtained customer feedback
                                on the shared service center program from three of its district
                                offices (Cleveland, Akron, and Pittsburgh). Although they
                                believed in the shared service concept, they stated that the
                                current structure had many problems. In addition, they stated
                                that the lack of coordination between district personnel and
                                shared service center personnel also led to untimely
                                submissions of Forms CA-1 and CA-2 to the Office of
                                Workers’ Compensation Programs.

                                The unfavorable customer feedback was due to several
                                problems revealed during our audit. The following are
                                examples of problems district personnel encountered:

                                     •    Phone calls to the 24 hours a day, 7 days a week,
                                          365 days a year call center were frequently
                                          unanswered, extending the time required to report an
                                          accident. Thus, field supervisors had to make several
                                          attempts before successful contact was made to a
                                          shared service center call agent. These agents are
                                          responsible for receiving and reporting the initial injury
                                          call.

                                     •    Exception reports were returned to the district offices
                                          for resolution. District supervisors stated that these
                                          reports were returned to the district offices requesting
                                          Forms CA-111 or declination letters.12 District
                                          personnel indicated that these forms were submitted
                                          to the shared service center, but the forms were
                                          misplaced or destroyed at the shared service center’s
                                          call center.

                                     •    Employees complained about unpaid bills they
                                          received from medical providers. Bills were not paid
                                          because the Department of Labor-Office of Workers’
                                          Compensation Programs would not assign a claim

11
   Office of Workers’ Compensation Programs Form CA-1, Federal Employee’s Notice of Traumatic Injury and Claim
For Continuation of Pay/Compensation is the form employees use to report an injury and claim for continuation of pay
or compensation.
12
   A declination letter indicates that an employee does not wish to file a Form CA-1 at this time. However, the
employee understands that he/she has 3 years from the date of the injury to file a claim.



                                                        11
                                              Restricted Information
Shared Service Center Injury Compensation                                                              HK-AR-03-002
 Program


                                           number to an injury until they received a Form CA-1 or
                                           declination letter from the shared service center.

                                      •    Information recorded on Postal Service’s Form 176913
                                           was incorrect, resulting in the forms being faxed
                                           several times to the shared service center.

                                 The Shared Service Program’s Project Plan, dated
                                 February 16, 2001, states that call agents should be on duty
                                 24 hours a day, 7 days a week, 365 days a year. As a result
                                 of this unfavorable customer feedback, the shared service
                                 center program lacks the support it needs from the district
                                 personnel to properly manage incident and accident reporting
                                 to the Office of Workers’ Compensation Programs and further
                                 expansion of the program to other Postal Service areas.

Untimely Submissions             The shared service center did not achieve the Postal
of Forms CA-1 and                Service’s internal 90 percent goal for timely submission of
CA-2                             Forms CA-1 and CA-214 to the Office of Workers’
                                 Compensation Programs. Based on interviews conducted
                                 with district personnel, we were told that a lack of
                                 coordination between district personnel and shared service
                                 center personnel led to delays in claim submissions.

                                 The Federal Employees’ Compensation Act and Postal
                                 Service Handbook EL-505 require that injury claims, such as
                                 Forms CA-1 and CA-2, be received by the Office of Workers’
                                 Compensation Programs within 10 business days or
                                 14 calendar days after the employee signs the forms.
                                 Although the Postal Service met the Office of Workers’
                                 Compensation Programs’ requirement about 75 percent of
                                 the time, in the fourth quarter of FY 2002, the Postal Service
                                 decided to establish its own 90 percent goal for timely
                                 processing. The Postal Service established this goal in an
                                 effort to reduce rising workers’ compensation costs.
                                 However, at the time of our audit, only the Western Area met
                                 the newly established 90 percent goal.




13
   Postal Service Form 1769, Accident Report, is used by supervisors to report all accidents regardless of the extent
of injury or amount of damage.
14
   Office of Workers’ Compensation Programs Form CA-2, Notice of Occupational Disease and Claim for
Compensation, notifies the supervisor of an occupational disease and serves as the report to the Office of Workers’
Compensation Programs.



                                                         12
                                               Restricted Information
Shared Service Center Injury Compensation                                                                                            HK-AR-03-002
 Program



                            The following table shows the Postal Service’s internal
                            tracking of the Forms CA-1 and CA-2 submitted by all areas
                            to the Office of Workers’ Compensation Programs.


                                                                      HEALTH AND RESOURCE MANAGEMENT
                                                                    Time Lag Analysis: Area Ranking as of Jan. 12,
                                                                                        2003

                                                                  100%
                               submitted to OWCP within 14 days                                                       88%           90%
                                                                                                               86%
                                Percent of CA-1 and CA-2 claims

                                                                  90%            84%           85%      83%                        83%
                                                                                                                             80%
                                                                                                      78%     77%
                                                                  80%     67%                 73%                    73%                  73%
                                                                                70%                                                         68%
                                                                         66%                                                67%
                                                                  70%                   65%

                                                                  60%
                                                                                       47%
                                                                  50%
                                                                  40%
                                                                  30%
                                                                  20%
                                                                  10%
                                                                   0%
                                                                          HQ     SE     CM     PA      SW      GL     NE     NY     WE    EA (IC
                                                                                                                                          SSC)

                                                                                                Postal Service Areas

                                                                                                    FY 2002    FY 2003



                            Source: The shared service center compiled this information from quarterly data
                            provided by the Office of Workers’ Compensation Programs (OWCP).


                            As a result, if the Postal Service cannot improve coordination
                            between employees, first-line supervisors, and personnel at
                            the shared service center, they will not be able to increase
                            timely submission rates, reduce delays in the reporting
                            process, and meet its internal 90 percent goal. Furthermore,
                            unless the shared service center improves its overall
                            operational efficiency, other Postal Service areas may not be
                            willing to accept the shared service center program being
                            expanded to their respective areas.

Recommendation              We recommend the vice president, Employee Resource
                            Management:

                                     3. Ensure the shared service center program manager
                                        better coordinates between district customers and


                                                                               13
                                                                     Restricted Information
Shared Service Center Injury Compensation                                        HK-AR-03-002
 Program


                                     shared service center personnel, to comply with the
                                     basic requirements of the Federal Employees’
                                     Compensation Act for accurate processing of, and
                                     timely submission of injury compensation claims.

Management’s                Management agreed with the recommendation stating that 15
Comments                    of the center’s case managers are serving as district liaisons
                            to assist customers in compliance with the basic
                            requirements of the Federal Employees’ Compensation Act
                            and to ensure accurate and timely processing of injury
                            claims. In addition, the shared service center has conducted
                            two Placeware Internet conferences with district safety
                            managers and occupational health nurse administrators as a
                            means to enhance communication with district customers.

Evaluation of               Management’s comments are responsive to our
Management’s                recommendations and the actions taken and planned should
Comments                    correct the issues identified in the report.




                                                  14
                                        Restricted Information
    Shared Service Center Injury Compensation                                                 HK-AR-03-002
     Program


                                                APPENDIX A

     DESCRIPTION OF THE SHARED SERVICE CENTER’S TIER 1 – CALL
          CENTER ACCIDENT REPORTING AND TIER 2 – CASE
                    MANAGEMENT COMPONENTS


                                 Tier-1 Call Center Activities

   Receive                        Initiate
 First Notice                   Immediate                   Data Input                     Form
 of Incident                   Involvement                 to System of                  Generation
                                 Activities                   Record




                                            Incoming                        Respond to
                Notification                Outgoing                         Routine
                    and                        Mail                         Questions
                Escalation                   Process



                         Tier-2 Case Management Activities

 Strategic              Medical                       Lost                      Controvert/
   Case               Management                   Production                   Challenge
Management                                        Day Tracking                   Activity




          Fraud Waste                  Limited Duty/                   Timekeeping             Program
           and Abuse                   Rehabilitation                  Certification          Evaluation
            Referral




                          Third Party                  Refusal to                  Hearings
                          Subrogation                  Reemploy/                  and Review
                                                       Separation                  Activities
                                                       Requests

                                                        15
                                              Restricted Information
Shared Service Center Injury Compensation                                             HK-AR-03-002
 Program




                                            APPENDIX B

          EASTERN AREA STAFF COSTS PRIOR TO AND AFTER
                        CONSOLIDATION


                                  Prior to Consolidation
                   Staff Type                Number of Staff              Cost

         District Staff                                     80            $5,078,321.64
         Area Staff                                         10              $767,217.82
         Total Staff:                                       90            $5,845,539.46


                          Shared Service Center Consolidation
                   Staff Type                Number of Staff              Cost

         Postal Service                                     41            $2,919,767.85
         Contractor                                         39            $1,114,102.08
         Total:                                             80            $4,033,869.93


                                Consolidation Cost Savings
          Cost Percentage Savings                          Cost Savings
                   31%                                    $1,811,669.53

             Source: Data provided by the shared service center.




                                                  16
                                        Restricted Information
Shared Service Center Injury Compensation                        HK-AR-03-002
 Program


                  APPENDIX C. MANAGEMENT’S COMMENTS




                                                  17
                                        Restricted Information
Shared Service Center Injury Compensation                        HK-AR-03-002
 Program




                                                  18
                                        Restricted Information
Shared Service Center Injury Compensation                        HK-AR-03-002
 Program




                                                  19
                                        Restricted Information
Shared Service Center Injury Compensation                        HK-AR-03-002
 Program




                                                  20
                                        Restricted Information
Shared Service Center Injury Compensation                        HK-AR-03-002
 Program




                                                  21
                                        Restricted Information
Shared Service Center Injury Compensation                        HK-AR-03-002
 Program




                                                  22
                                        Restricted Information
Shared Service Center Injury Compensation                        HK-AR-03-002
 Program




                                                  23
                                        Restricted Information
